WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

SEP 14 2021
OFFICE OF THE CLERK

No. 21-313
v.

Ciara Vesey
(Petitioner)

Envoy Air, Incorporated, dba American
Eagle Airlines, Inc.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

•
Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the,United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

I

1Lindsay J. Fiore

(Type or print) Name

Mr.
Firm
Address

El Ms.

Ell Mrs.

0 Miss

Greenberg Traurig, LLP
2375 E. Camelback Road, Ste. 700

City & State Phoenix, AZ
Phone

602-445-8507

Zip

85016

Email Fiora@gtlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQ
cc:

Rod Curry, Esq.
Carla D. Aikens, Esq.

CEIVED

SEP 2 4 2021
SUPREME C URTERK
U.S.

O

